<html>
<title> - OPPORTUNITIES TO IMPROVE AND EXPAND INFRASTRUCTURE IMPORTANT TO FEDERAL LANDS, RECREATION, WATER, AND RESOURCES</title>
<body><pre>[Senate Hearing 115-350]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-350

                  OPPORTUNITIES TO IMPROVE AND EXPAND
                  INFRASTRUCTURE IMPORTANT TO FEDERAL
                LANDS, RECREATION, WATER, AND RESOURCES

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 21, 2017

                               __________
                               
                               
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                               


                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
               
               
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
24-975 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="096e7966496a7c7a7d616c6579276a666427">[email&#160;protected]</a>               
               
               
              
               
               
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
CORY GARDNER, Colorado               JOE MANCHIN III, West Virginia
LAMAR ALEXANDER, Tennessee           MARTIN HEINRICH, New Mexico
JOHN HOEVEN, North Dakota            MAZIE K. HIRONO, Hawaii
BILL CASSIDY, Louisiana              ANGUS S. KING, JR., Maine
ROB PORTMAN, Ohio                    TAMMY DUCKWORTH, Illinois
LUTHER STRANGE, Alabama              CATHERINE CORTEZ MASTO, Nevada

                      Colin Hayes, Staff Director
                Patrick J. McCormick III, Chief Counsel
   Lucy Murfitt, Senior Counsel and Public Lands & Natural Resources 
                            Policy Director
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
        Bryan Petit, Democratic Senior Professional Staff Member
                            
                            
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     3

                               WITNESSES

Argust, Marcia, Director, Restore America's Parks campaign, The 
  Pew Charitable Trusts..........................................    60
Bonar, Bob, President, Snowbird Ski & Summer Resort, and 
  Chairman, National Ski Areas Association's Public Lands 
  Committee......................................................    72
Simmons, Jill, Executive Director, Washington Trails Association.    82
Spears, David B., President, Association of American State 
  Geologists.....................................................    89
Treese, Chris, Manager, External Affairs, Colorado River Water 
  Conservation District, and Board Member, National Water 
  Resources Association..........................................    93
Worsley, Bradley, President, Novo Power, LLC.....................   106

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

American Rivers, et al.:
    Letter for the Record........................................   200
Argust, Marcia:
    Opening Statement............................................    60
    Written Testimony............................................    63
    Responses to Questions for the Record........................   135
Backcountry Hunters & Anglers:
    Letter for the Record........................................   203
Bonar, Bob:
    Opening Statement............................................    72
    Written Testimony............................................    75
    Responses to Questions for the Record........................   175
Cantwell, Hon. Maria:
    Opening Statement............................................     3
    U.S. Department of Agriculture, Forest Service Report dated 
      November 2016 entitled ``Federal Outdoor Recreation Trends: 
      Effects on Economic Opportunities''........................     4
    Chart entitled ``2012 Economic contributions of visitor 
      spending for recreation on federal lands and water (2012 
      dollars)''.................................................    58
(The) Corps Network:
    Letter for the Record........................................   206
(The) Mountain Pact:
    Letter for the Record........................................   211
    Attachments:
        Cover Letter to Congressional Leadership (Hon. Mitch 
          McConnell, Hon. Chuck Schumer, Hon. Paul Ryan, and Hon. 
          Nancy Pelosi)..........................................   214
        Letter to President Donald Trump and Hon. Ryan Zinke.....   215
        Opinion dated February 3, 2017, in the Denver Business 
          Journal entitled ``Outdoor Rec Act gives boost to major 
          Colorado industry''....................................   217
        Article by Richard Hildner dated February 20, 2017, in 
          the Missoulian entitled ``Outdoor REC Act a lifeline 
          for Whitefish''........................................   219
        Tahoe Regional Planning Agency:
            Letter to Hon. Mark Amodei...........................   221
            Letter to Hon. Dean Heller...........................   222
            Letter to Hon. Catherine Cortez Masto................   223
            Letter to Hon. Tom McClintock........................   224
            Letter to Hon. Kamala Harris.........................   225
            Letter to Hon. Dianne Feinstein......................   226
        Town of Truckee (California):
            Letter to Hon. Kamala Harris.........................   227
            Letter to Hon. Tom McClintock........................   229
            Letter to Hon. Dianne Feinstein......................   230
        Town of Mammoth Lakes (California):
            Letter to Hon. Paul Cook.............................   231
            Letter to Hon. Dianne Feinstein......................   232
            Letter to Hon. Kamala Harris.........................   233
        City of Aspen (Colorado):
            Letter to Hon. Scott Tipton..........................   234
            Letter to Hon. Michael Bennet........................   235
            Letter to Hon. Cory Gardner..........................   236
        Town of Buena Vista (Colorado):
            Letter to Hon. Doug Lamborn..........................   237
            Letter to Hon. Michael Bennet........................   238
            Letter to Hon. Cory Gardner..........................   239
        Town of Estes Park (Colorado):
            Letter to Hon. Michael Bennet........................   240
            Letter to Hon. Jared Polis...........................   241
            Letter to Hon. Cory Gardner..........................   242
        Town of Ridgway (Colorado):
            Letter to Hon. Scott Tipton..........................   243
            Letter to Hon. Michael Bennet........................   244
            Letter to Hon. Cory Gardner..........................   245
        Town of Telluride (Colorado):
            Letter to Hon. Scott Tipton..........................   246
            Letter to Hon. Michael Bennet........................   247
            Letter to Hon. Cory Gardner..........................   248
        Village of Taos Ski Valley (New Mexico):
            Letter to Hon. Martin Heinrich.......................   249
            Letter to Hon. Ben Lujan.............................   250
            Letter to Hon. Tom Udall.............................   251
        City of Bend (Oregon):
            Letter to Hon. Greg Walden...........................   252
            Letter to Hon. Jeff Merkley..........................   253
            Letter to Hon. Ron Wyden.............................   254
        Town of Alta (Utah):
            Letter to Hon. Orrin G. Hatch........................   255
            Letter to Hon. Jason Chaffetz........................   256
            Letter to Hon. Mike Lee..............................   257
        Teton County (Wyoming):
            Letter to Hon. John Barrasso.........................   258
            Letter to Hon. Michael Enzi..........................   259
            Letter to Hon. Liz Cheney............................   260
        City of Leavenworth (Washington):
            Letter to Hon. Patty Murray..........................   261
            Letter to Hon. Maria Cantwell........................   262
            Letter to Hon. Dave Reichert.........................   263
Mountains to Sound Greenway Trust:
    Letter for the Record........................................   264
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
National Ground Water Association:
    Letter for the Record........................................   266
National Trust for Historic Preservation:
    Statement for the Record.....................................   267
National Wildlife Federation:
    Email for the Record.........................................   273
    Attachment:
        Alabama Wildlife Federation, et al.:
            Letter to President Donald Trump.....................   275
Ormat Technologies, Inc.:
    Letter for the Record........................................   278
Outdoor Alliance:
    Letter for the Record........................................   280
Outdoor Industry Association:
    Letter for the Record........................................   285
Poseidon Water LLC:
    Letter for the Record........................................   289
Rieman, Jerimiah L.:
    Statement for the Record.....................................   293
Simmons, Jill:
    Opening Statement............................................    82
    Written Testimony............................................    84
    Responses to Questions for the Record........................   179
Spears, David B.:
    Opening Statement............................................    89
    Written Testimony............................................    91
    Responses to Questions for the Record........................   183
Treese, Chris:
    Opening Statement............................................    93
    Written Testimony............................................    95
    Responses to Questions for the Record........................   190
Trout Unlimited:
    Letter for the Record........................................   322
Worsley, Bradley:
    Opening Statement............................................   106
    Written Testimony............................................   108
    Responses to Questions for the Record........................   196

 
                  OPPORTUNITIES TO IMPROVE AND EXPAND
                      INFRASTRUCTURE IMPORTANT TO
                   FEDERAL LANDS, RECREATION, WATER,
                             AND RESOURCES

                              ----------                              


                        TUESDAY, MARCH 21, 2017

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

  OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM 
                             ALASKA

    The Chairman. Good morning, everyone. The Committee will 
come to order.
    We are here today to continue our discussion about 
infrastructure. We had a good hearing last week and, I think, 
gained a lot of good insight.
    Today's look is a little bit different. We are going to be 
focusing on infrastructure that is beneficial to our federal 
lands, to our waters and to the people and the communities that 
rely on them.
    Infrastructure in this context means everything from trails 
for hikers and bikers, to sawmills and biomass facilities to 
process timber and slash from overgrown, fire-prone, federal 
forests. It also means water projects to control floods, 
deliver water to communities and store water to protect against 
drought, something that, of course, is on all of our minds here 
in the midst of Water Week 2017. It also means mineral 
development as federal lands can provide everything from the 
sand and gravel for roads to the trails as well but to the rare 
earths and other metals found in solar panels, electric 
vehicles and countless other technologies. It also means the 
infrastructure on our federal lands that is critical to the 
visitor experience but that our land management agencies have 
often failed to maintain according to schedule. The sewer and 
water systems, the roads, the buildings, the trails that all 
need work and repair. We call it the deferred maintenance 
backlog. And it is staggering.
    The National Park Service backlog has now grown to nearly 
$12 billion, the Forest Service backlog is over $5 billion, and 
the Bureau of Reclamation has a backlog of over $3 billion in 
maintenance needs. This is significant, and I don't think that 
any of us should kid ourselves. The backlog, in order to truly 
and meaningfully address it, is going to take real dollars to 
resolve. But whether we are talking about aging infrastructure 
on federal lands or looking to build something new to respond 
to a community need or visitor demand, Congressional 
appropriations alone are not going to be enough. So, what else 
do we do?
    This is the reason we have asked you to join us this 
morning. Leveraging private dollars and capacity through 
public/private partnerships is absolutely necessary in these 
tough budget times. I think it can be a win/win for both the 
Federal Government and rural, regional economies.
    We should also remember that infrastructure is not just a 
matter of dollars. It is also about cutting the regulatory red 
tape that often holds projects back and adds to their costs. We 
had a great deal of that discussion in last week's hearing, 
talking about the uncertainty that with certain focus on 
regulation and overlay and overlap, that adds uncertainty to a 
process and certainly cost to a process as well.
    How we might be able to address that, again, is something 
that I would hope to elicit in today's discussion.
    When we talk about the regulatory red tape and those things 
that do hold projects back and add to the cost, we have seen 
the need for this in mining, water projects, community-
supported forest thinning projects, timber sales and new 
recreation uses--just about, really, everywhere. Everywhere you 
look is an issue that relates to the regulation.
    The take away is that navigating the current maze of 
congressional statutes, federal regulations, administrative 
directions, executive orders, secretarial memos and court 
decisions, is a mine field. And it is not necessarily for the 
faint at heart. We need to do better.
    I think we owe it to our Western and our rural communities 
and the people who live near and depend on federal lands for 
their livelihoods to do better. We need to do better for the 
next generation so they too can experience the world class, 
outdoor recreation system that generations before them have 
enjoyed.
    As I said, last week our Committee began to address the 
infrastructure challenges within our jurisdiction through the 
bipartisan energy bill that Senator Cantwell and I led on last 
year, as well as our wildfire and forest management discussion 
draft and other legislation that came from this Committee. Know 
that we will work to build on that through our infrastructure 
hearings. When Congress is ready to consider an infrastructure 
package, our Committee will be ready to make a serious 
contribution to it. This is an important subject.
    I thank our witnesses for being here to discuss this with 
us. I also want to recognize and acknowledge our newest 
Committee member, Senator Strange, from the great State of 
Louisiana.
    Senator Strange. Alabama.
    The Chairman. Alabama. You are sitting at the end there. 
It's that southern accent.
    [Laughter.]
    Even though he sits at the end of this broad dais here, he 
has much to contribute on these matters that are so important 
in the energy sector and for the overall strength of our 
nation's economy.
    It is good to have you as part of the Committee.
    Senator Strange. Thank you, I am honored to serve with you 
on the Committee.
    The Chairman. Fabulous.
    With that, I will turn to Senator Cantwell for your opening 
remarks.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair.
    I am excited about today's hearing and to hear from the 
witnesses, because infrastructure to support our recreation 
economy is a very important subject.
    Before I get started, I wanted to acknowledge the witness, 
Jill Simmons. Thank you for coming here to testify and welcome 
as the newest Director of the Washington Trails Association. 
That is a very important organization in our state, and I thank 
you for the amazing work that they do.
    When it comes to our recreation economy, a report released 
at the end of last year by the Forest Service's Pacific 
Northwest Research Station, showed that in one year outdoor 
recreationists made more than 938 million visits to federal 
lands, spending $51 billion and supporting 880,000 jobs. That 
is just the federal land piece of the $646 billion outdoor 
recreation economy.
    The report goes on to forecast increased participation in 
recreation activities on federal lands in the future and 
describes how these lands have encouraged businesses to locate 
in adjacent communities. Unfortunately, the report also 
discusses how the current infrastructure deficit and needs on 
federal lands are constraining our recreation use.
    Madam Chair, I would like to enter that USDA report into 
the record today, if I could, in full.
    The Chairman. It will be included.
    Senator Cantwell. Thank you.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cantwell. Investing in infrastructure is key for 
maintaining and growing our economy, and this is one of the 
most basic areas where we can grow jobs. I thought that 
President Trump and the Republicans and Democrats in the 
Congress can agree on that, that we need a budget proposal that 
will help us do that.
    Unfortunately, that is not what we are seeing in the 
President's proposed budget. Today my colleagues and I are 
sending a letter to the President detailing how devastating the 
Interior and Forest Service budget would be to infrastructure 
and the infrastructure jobs that we need.
    It is ironic that we are gathered to discuss investing in 
infrastructure at the very time we are seeing a budget that 
kind of abandons that concept. The President's budget 
shortchanges the National Park Service, slashes the Land and 
Water Conservation Fund to its lowest level in 40 years, it 
cuts key tribal infrastructure programs, reduces PILT (the 
Payments In Lieu of Taxes program), makes no mention of the 
Secure Rural Schools program, and contains no plausible fix for 
fire borrowing, that my colleague, Senator Murkowski, just 
mentioned that we worked so hard on.
    Let's just look at PILT and Secure Rural Schools. It 
highlights that we need to have progress made on these issues. 
We cannot claim to be saving money for an infrastructure 
package by taking money away from the infrastructure needs of 
states. Whether that's in counties who have to fund their 
schools in rural areas or increase access in communities or do 
road work, we need to work together to resolve these problems.
    The issue is fundamentally about making investments in our 
economy, particularly for jobs. We need to be looking at the 
sectors that are the biggest contributors to the economy. 
Certainly, the biggest contributor or ``bang for the buck'' is 
the recreation economy and what we've been able to accomplish.
    People spend $646 billion a year in the U.S. outdoor 
recreation economy, and it is one of the largest industries in 
the country, directly employing six million Americans. In 
Washington State, there are 227,000 people directly employed in 
the outdoor recreation economy.
    Recreation in the parks helps us support 300,000 jobs, and 
visitors spent an estimated $16.9 billion in gateway 
communities last year. And last year during the Centennial 
anniversary of the National Park Service, a record 331 million 
people visited our parks, a seven percent increase over the 
previous year.
    Recreation in our national forests provides 194,000 jobs. 
That is about 40 percent of the national forests' contribution 
to the GDP, so it's a very important part of our forest system.
    I know the Chair and I discussed these issues and would 
like to have more influence over many of these issues, as it 
relates to the Forest Service.
    [The information referred to follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    We have invited the ski industry areas association here 
today because I don't know that members of the public 
understand how much they also contribute to the economy. Each 
year people spend $4 billion recreating at these resorts, and 
the primary reason listed for 16 percent of the visits to 
national forests last year was skiing and snowboarding. 
Washington has amazing ski places. We have ten different ski 
areas on our national forests and they generate a lot for our 
economy.
    We need Congress to significantly increase the investment 
in our national parks, our forest lands, and other public 
lands. Yet, with the 12 percent budget cut proposed by the 
President, the National Park Service and other land management 
agencies will likely fall further and further behind in 
maintenance.
    It is well known that the Park Service total deferred 
maintenance backlog is almost $12 billion. This figure reflects 
the failure of Congress to keep pace with the infrastructure 
needs. It has been estimated the Park Service needs over $800 
million each year just to keep the maintenance backlog from 
getting any larger, yet the annual appropriations rarely meet 
60 percent of that which means the backlog continues to grow.
    It is a similar story on our national forests. A GAO report 
issued last year detailed the dire condition of the Forest 
Service's trails systems. Trails are essential and must 
continue to be invested in, but less than 25 percent of the 
Forest Service's trails are up to the Agency's standard for 
safety and use. Thousands of hours are performed by volunteer 
crews, like Jill's, and they more than exceed every federal 
dollar going in, with a $1.60 local match. But we, on the 
federal side, need to do more.
    We need to address, as the Chair mentioned too, rural 
communities and headwater issues while making investments for 
recreation on public lands. Much of our country's water 
infrastructure is aging and in need of repair. My colleague 
from Michigan is here and obviously, the failure in Flint, 
Michigan, and recent failures at the Oroville Dam in California 
have brought national attention to the state of our water 
supply system. As this infrastructure is aging and communities 
in the agriculture sector face challenges in meeting those 
water needs we must invest in ways to improve our business and 
our capacity. This means investing in more collaborative 
planning like the Yakima Basin and improving water 
conservation, recycling, groundwater storage and recovery.
    Investing in our water infrastructure and our public lands 
is all about jobs. I hope, Madam Chair, if there is any 
infrastructure bill that moves this year, that it will include 
these issues (our outdoor economy and water) as part of that.
    I look forward to hearing the testimony from the witnesses 
today.
    The Chairman. Thank you, Senator Cantwell. I appreciate 
your comments and, again, the reminder how much, really, when 
you think about the economic impact that we see on our federal 
lands, comes from the recreation side. I know that I, 
personally, contribute in ways that are helpful.
    [Laughter.]
    Whether it is trails or being able to ski or just being 
outside.
    Thank you to all of our witnesses for being here this 
morning. We appreciate the travel that it takes but also your 
commitment, not only to being here this morning, but for the 
work that you do.
    We will have the panel led off by Marcia Argust, who is the 
Director for Restore America's Parks campaign. She is with The 
Pew Charitable Trusts here in Washington.
    She will be followed by Mr. Bob Bonar. Mr. Bonar is the 
President of Snowbird Ski & Summer Resort. He is also the 
Chairman for the National Ski Areas Association Public Lands 
Committee from Snowbird, Utah, a lovely place. We appreciate 
you being here.
    Ms. Simmons has been introduced a little bit by Senator 
Cantwell here as the Executive Director for the Washington 
Trails Association. It is nice to have you here, Jill.
    David Spears is the President of the Association of 
American State Geologists from Virginia. Thank you for joining 
us.
    Mr. Chris Treese is the External Affairs Manager for the 
Colorado River District from Glenwood Springs, Colorado. 
Welcome to the Committee.
    The last member of our panel this morning is Mr. Brad 
Worsley, who is the President of Novo Power, from Snowflake, 
Arizona. I think we recognize Snowflake from one of our 
Committee members. We are pleased to have you here as well.
    I would ask that you limit your comments to five minutes. 
Your full statements will be included as part of the record, 
but that will provide us an opportunity to ask questions at the 
conclusion of your remarks.
    We will begin with Ms. Argust and just go straight down the 
table here.
    Welcome and good morning.

 STATEMENT OF MARCIA ARGUST, DIRECTOR, RESTORE AMERICA'S PARKS 
              CAMPAIGN, THE PEW CHARITABLE TRUSTS

    Ms. Argust. Thanks.
    Chairman Murkowski, Ranking Member Cantwell and members of 
the Committee, thanks for hosting the hearing today and 
inviting me. I'd like to submit my full written testimony for 
the record.
    I'm Marcia Argust with the Restore America's Parks program 
at The Pew Charitable Trusts. We're working to implement common 
sense solutions to address the deferred maintenance challenge 
facing the National Park System. Infrastructure, as mentioned, 
is part of that challenge.
    The Park Service maintains 10,000 miles of roads, 18,000 
miles of trails, more than 24,000 buildings, many of which are 
historic, and 2,000 sewage systems, many of them which are in 
Yellowstone Park. It cares for waterfronts and marinas, former 
military installations, campgrounds and iconic monuments. In 
total, the agency is responsible for protecting 75,000 assets, 
41,000 of which need infrastructure repairs.
    And as we've noted, as you've noted, the assets require 
$11.9 billion to fix them. The Park Service is struggling to 
keep pace with these repairs for a number of reasons: aging 
facilities, unfair transportation cost burdens, pressures due 
to increased visitation and decreasing maintenance budgets, 
with the exception of the Centennial budget.
    Our parks preserve our history and natural resources. They 
provide unmatched recreation, and they serve as economic 
engines. For all these reasons and more, restoring park 
infrastructure is a smart investment and it has potential to 
create jobs.
    Reduction of the backlog will require multiple approaches. 
I'd like to highlight a few ideas here. We absolutely need 
reliable, annual appropriations and dedicated funding as well 
as adequate staff capacity. A more realistic funding approach 
to Park Service transportation costs must also be considered. 
Half of the backlog, $6 billion, is due to transportation 
needs. Some of the most costly park road projects are parkways 
that have become major commuter routes. This is simply 
unsustainable.
    While Congressional funding is key, we also need to be 
encouraging public/private partnerships to address the backlog. 
For example, job training can repair infrastructure. The 
Concrete Preservation Institute is an example of this. It's a 
non-profit organization that's partnering with DoD and the Park 
Service to do 12 weeks of construction skills training for 
soon-to-be discharged military personnel, and it's having them 
work on deferred maintenance projects on historic assets in 
parks. Construction firms then hire the alumni when they've 
completed their training and their military service. This 
program is currently only in two parks, but they'd like to 
expand. They simply don't have the capacity. Foundations, 
businesses and philanthropists should be lining up to engage in 
this program and we should be encouraging that.
    Pew also supports opportunities for appropriate corporate 
partnerships. In Yellowstone National Park, Toyota Yellowstone 
Forever and the National Park Service has partnered to 
sustainably power a remote field station by repurposing hybrid 
vehicle car batteries and solar panels. Previously the station 
relied on polluting diesel and propane generators. This is the 
type of innovative corporate collaboration we should be 
encouraging to address deferred maintenance.
    Another corporate example is that with the Park Service and 
Musco Lighting. At Mount Rushmore, Musco Lighting enabled the 
park to reduce energy consumption by 90 percent resulting in a 
major cost savings for the park.
    Volunteerism is another area that should be encouraged and 
where modest investment can leverage more coordination and work 
orders--work hours devoted toward maintenance projects. The 
Park Service had over 330,000 participants contribute over one 
million hours of maintenance work last year, and that 
translated to a savings of $20 million to the agency.
    The Student Conservation Association which uses student 
crews on federal lands contributed over one million hours of 
service last year. Much of the students' work is on trails in 
parks, and trails have over $530 million worth of repairs 
needed, as Jill might talk about.
    In conclusion, repairing park infrastructure is a wise 
investment. Pew urges any infrastructure proposal to 
incorporate National Park maintenance provisions. This will 
help to ensure visitors and nearby residents safe access to 
park resources and recreation. It will also sustain the local 
economies that depend on parks and it will create 
infrastructure-related jobs.
    Thank you, and I'm happy to address any questions later on.
    [The prepared statement of Ms. Argust follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Ms. Argust.
    Mr. Bonar?

   STATEMENT OF BOB BONAR, PRESIDENT, SNOWBIRD SKI & SUMMER 
 RESORT, AND CHAIRMAN, NATIONAL SKI AREAS ASSOCIATION'S PUBLIC 
                        LANDS COMMITTEE

    Mr. Bonar. Chairman Murkowski, Ranking Member Cantwell and 
members of the Committee, thank you for the opportunity to 
testify today on behalf of Snowbird Resort and the National Ski 
Area Association on the important topic of private investment 
in infrastructure on public land.
    Snowbird was founded in 1971 by the late Dick Bass in 
Little Cottonwood Canyon on the Wasatch-Cache National Forest 
in Utah. We operate on a year-round basis accommodating 480,000 
skiers and snowboarder visits per year.
    Snowbird has made significant capital investments on the 
mountain over the past 46 years totaling $300 million. We have 
plans to make significant investments in the future as well, 
totaling $55 million. With the help of this Committee and our 
partners in recreation, the U.S. Forest Service, we hope to be 
able to make those investments and do so in an efficient and 
timely manner.
    I serve as Chairman of the National Ski Areas Association's 
Public Lands Committee, representing the 122 ski resorts that 
operate on National Forest System lands in 13 states. 
Collectively, we make significant capital investment in 
infrastructure, and we need Congress' help to remove 
impediments to allow more investment in the future.
    Public land resorts work in partnership with the Forest 
Service to deliver an outdoor recreation experience unmatched 
in the world. Our model public/private partnership greatly 
benefits rural economies, improves the health and fitness of 
millions of Americans, of all ages, promotes appreciation for 
the national environment and delivers a return to the U.S. 
Government through fees paid for use of the land.
    Ski areas are the economic drivers in many rural 
communities in which they operate and are frequently the 
largest employers in these communities. Over the past five 
years, the U.S. ski industry has averaged 57 million skiers/
snowboarders annually and more than half of those visits occur 
on public land. In total, the ski industry, including retail 
apparel/equipment, supports $62 billion in tourist-related 
revenue, creates 964,000 jobs and $4.6 billion in annual retail 
sales.
    Ski areas are developed sites that are designated to 
accommodate very large numbers of visitors. While ski areas pay 
for all capital improvements onsite and the review process as 
well, our improvement projects are simply not moving forward as 
quickly as they used to.
    I will next elaborate on the investments we are poised to 
make and why this process is hamstrung and what solutions might 
be applied to allow us to invest more and sooner in this much 
needed infrastructure.
    Ski areas are, excuse me, poised to invest in 
infrastructure on public lands because of the favorable economy 
that we have right now, strong skier/snowboarder visits and 
great snow this year. Congress opened up authority for year-
round uses at ski areas by enacting the Ski Area Recreational 
Opportunity Enhancement Act in 2011 and demand for summer 
activities is sharply on the rise.
    Here are some examples of typical infrastructure 
improvements we're looking at at the ski resorts.
    Ski areas constantly invest in lift infrastructure to 
improve our guest experience and uphill capacity, more 
circulation on the mountain, replacing aging lifts and to serve 
new terrain. Snowbird is planning to invest in two new lifts in 
the near future in Mary Ellen Gulch which will total $17 
million. Like many resorts, we need to and hope to replace 
older lifts totaling $12 million. Lift infrastructure 
investments are critical, absolutely critical, to the future of 
our businesses.
    Ski areas also need to upgrade snowmaking systems to be 
more consistent and reliable ski conditions, especially early 
season in time for the holidays. Water facilities related to 
snowmaking are also critical infrastructure. The snow that we 
make with this infrastructure benefits the entire community in 
winter, not just at the ski area.
    Ski areas need to invest in on-mountain facilities for 
guest services including rest rooms, rentals, ski schools and 
dining. Last season Snowbird opened a 23,000 square foot lodge 
on top of our mountain called ``the Summit'' as part of a $35 
million capital improvement that took seven years to approve.
    Ski areas are investing heavily in summer activities as 
well, such as zip lines, rope courses, mountain coasters, 
alpine slides, bike parks and other amenities. Snowbird already 
has many of these amenities and facilities and is planning to 
add two new zip lines soon.
    There's a great potential for resorts to expand year-round 
activities, but already overwhelmed agency staff now have 
summer projects to approve in addition to the winter projects.
    When ski areas are ready to build something and capital is 
available to fund it, we need the approval process to be 
predictable and move forward quickly. Unfortunately, that is 
not always the case. In fact, some regions, particularly the 
Pacific Northwest, face a situation where no new projects are 
being considered by the Forest Service.
    Mount Hood Meadows in Oregon, which is highlighted in our 
written testimony, recently proposed a new $12 million lodge to 
address overcrowding and current retail dining and ski school 
facilities, but the application was denied. Similarly, 
Timberline Lodge in Oregon proposed a project to replace an 
aging lift at the resort but was denied due to lack of staff. 
The upshot of having no process or slow process for ski resort 
projects is that money that would be invested in infrastructure 
remains sitting on the sidelines.
    Even when resorts are lucky enough to get their projects 
rolling in the review process, there are two major factors that 
have bogged down the process. One, understaffing at the Forest 
Service, and two, layers of regulation that need to be 
streamlined.
    The Forest Service recreation program is understaffed and 
underfunded due to firefighting costs and the resulting 
downsizing of jobs, among special use administrators. It has 
become close to impossible to move ski area improvement 
projects forward in a timely manner as there is literally no 
one at the desk to move them along.
    The review process should be streamlined for highly 
developed sites, like ski areas, that have likely been reviewed 
more than any other acres on the national forest. Replacing an 
existing chair lift in the same alignment or replacing a 
building in the same footprint should be covered by a categoric 
exclusion, not an EIS. Incidental tree removal that occurs at 
resorts in conjunction with projects should not be treated as a 
full-blown timber sale. Streamlining in these areas would save 
millions of dollars and benefit both the agency and the ski 
industry.
    So I've been saving the best news for last. There are 
solutions to reduce the hurdles to private investment in 
infrastructure at ski resorts. First, Congress should enact 
legislation to locally retain a percentage of ski area permit 
fees paid to the Forest Service and support ski area 
administration, permit administration and facilitate the 
approval of these projects. We want to thank Senator Wyden and 
Senator Gardner for their leadership on the ski retention 
legislation to date. We're looking forward to working with you 
and other committee members on capturing these fees locally to 
provide adequate staff and eliminate the backlog of critical 
ski area infrastructure projects. Second, a team of winter 
sports specialists funded by fee retention could help 
streamline and expedite the NEPA review process. More CEs, less 
EISs particularly when replacing lifts and buildings and less 
timber process. Third, we would dramatically increase the use 
of contracting in ski resort NEPA review using private sector 
specialists instead of the overwhelmed Forest Service staff.
    The Chairman. Mr. Bonar, can I ask you to wrap, please?
    Mr. Bonar. Yes, thank you very much.
    I'm finished and I thank you for the--allowing me to run 
over for a couple minutes and for testimony today. Thank you. I 
am happy to answer any questions. Thank you.
    The Chairman. We like the fact that we have suggestions at 
the end which makes it good.
    Mr. Bonar. Okay, thank you.
    [The prepared statement of Mr. Bonar follows:] 
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. It gives us something to feed off with our 
questions.
    Let's go to Ms. Simmons.

   STATEMENT OF JILL SIMMONS, EXECUTIVE DIRECTOR, WASHINGTON 
                       TRAILS ASSOCIATION

    Ms. Simmons. Good morning, Chairman Murkowski, Ranking 
Member Cantwell and members of the Committee. My name is Jill 
Simmons, and I'm the Executive Director of the Washington 
Trails Association, the nation's largest trail maintenance and 
hiking advocacy organization.
    Thank you for the opportunity to discuss the importance of 
recreation infrastructure on federal lands. I'm here today to 
talk about the risks to the economic engine of the outdoor 
recreation economy, an economy that in 2013 was estimated to 
generate $646 billion in consumer spending, an amount greater 
than the 2015 GDP of all but six states.
    The recreation economy is at risk because of decades of 
chronic underinvestment in infrastructure on public lands which 
will be exacerbated by the current Administration's proposed 
budget that includes deep cuts to the agencies that are needed 
to keep this economic engine humming.
    But I'm also here to talk about some good news. There are 
hundreds of organizations and thousands of volunteers who are 
ready and willing to leverage increased federal investment many 
times over with their sweat equity to ensure trails and other 
recreation infrastructure remain available for all Americans to 
enjoy.
    Take my organization, for example. The Washington Trails 
Association runs a trail maintenance program where last year 
more than 4,700 volunteers donated 150,000 hours of their time 
to maintaining trails. More than half of those hours were on 
federal land, thanks to strong partnerships with the Forest 
Service and the Park Service.
    Just two weeks ago, I went out on one of our volunteer work 
parties. Twenty volunteers worked all day to build up the tread 
and improve the drainage along the trail. As you can imagine 
with it being winter in the Northwest, it was wet and muddy 
work but it was a lot of fun. But what impressed me the most 
was the commitment of these volunteers. The 20 people I worked 
with in the mud that day had collectively donated more than 
5,000 days to maintaining trails. Yes, that's more than 13-1/2 
years.
    But volunteers cannot do it alone. Volunteer programs must 
work effectively. In order for volunteer programs to work 
effectively there must be adequate staffing at land management 
agencies and sufficient construction and maintenance budgets. 
From expertise on federal regulation to site-specific 
knowledge, federal employees and their supporting budgets are 
essential to the success of programs like ours.
    What's more, we're helping to maintain publicly-owned 
infrastructure that is increasingly in demand. Since 1977 the 
number of recreation visitor days on National Forest trails has 
increased 376 percent. The Forest Service has reported that 
recreation is, by far, the single biggest use of the National 
Forest System. And in Washington State, 54 percent of residents 
report hiking every year, a number that grows to 72 percent if 
you include all types of trail users, like hunters and 
equestrians.
    People head out on the trail for many reasons: exercise, 
recreation, peace and quiet, but they all have one thing in 
common. On the way to the trail and back again they support the 
local, state and national economy. In fact, as I mentioned 
earlier, outdoor recreation is an economic driver that should 
not be ignored--employing more than six million Americans and 
contributing nearly $40 billion in federal taxes and another 
$40 billion in state and local taxes.
    A recent study in my own home State of Washington showed 
that the state's recreation economy generates $21.6 billion in 
annual consumer spending and $2 billion in state and local tax 
revenue. At a time when visitation to our public lands is at an 
all-time high, federal trail maintenance backlogs run in the 
hundreds of millions of dollars. A 2013 GAO report found that 
the Forest Service has only been able to maintain 25 percent of 
its trails to agency standards.
    Without trails to draw them in, people won't have a reason 
to stop at the local restaurant or the gas stations that are 
scattered throughout gateway communities across the United 
States. Chronic underinvestment cannot continue if we want to 
keep the recreation economy growing.
    I believe that enhanced federal funding and creative 
partnerships are key to reducing the infrastructure backlog on 
federal lands. Washington Trails Association has been working 
for nearly 25 years to maintain trails. We stretch tax dollars, 
donating more than $3 million in volunteer labor annually.
    The American people are demonstrating year over year that 
we want to use our lands for hiking and outdoor recreation. 
Washington Trails Association and the many partner 
organizations we work with stand ready to leverage federal 
investment with the hard work of our volunteers. The people who 
use and love our nation's trails want to partner with you to 
keep our public lands available for everyone to enjoy.
    Thank you for the opportunity to speak with you today and I 
look forward to questions.
    [The prepared statement of Ms. Simmons follows:] 
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Ms. Simmons.
    Mr. Spears, welcome to the Committee.

           STATEMENT OF DAVID B. SPEARS, PRESIDENT, 
            ASSOCIATION OF AMERICAN STATE GEOLOGISTS

    Mr. Spears. Thank you, Chairman Murkowski, Ranking Member 
Cantwell and members of the Committee. My name is David Spears, 
and I am President of the Association of American State 
Geologists. Our members are the chief executives of the state 
geological surveys. Every one of your states has a geological 
survey, either in an Executive Branch agency or in a state 
university.
    Like the U.S. Geological Survey (USGS), our activities are 
focused on geologic and topographic mapping, identification and 
assessment of mineral, energy and water resources and the 
reduction of risk from geologic hazards such as earthquakes, 
volcanoes and landslides. We collaborate closely with the USGS 
on these topics, often through cooperative programs such as the 
National Cooperative Geologic Mapping Program, the National 
Earthquake Hazards Reduction Program and the National 
Geological and Geophysical Data Preservation Program. We are 
proud of the positive impact our activities have had on our 
nation's economic prosperity, national security and 
environmental protection.
    We're here today to talk about infrastructure, and no input 
is more essential to infrastructure than minerals. And I'm 
using the term ``minerals'' broadly to include all non-fuel 
mineral materials such as sand, gravel, crushed stone, metals 
and industrial minerals. These are the raw materials essential 
to building almost anything.
    Road construction and maintenance require large quantities 
of crushed stone for the road base and then either asphalt or 
concrete for the road surface. Constructing just one mile of 
two-lane highway requires between 20,000 and 40,000 tons of 
sand, gravel and crushed stone.
    According to the United Nations, ``Sand and gravel 
represent the highest volume of raw material used on earth 
after water.'' These materials have a relatively low unit 
price, but because they are bulky, transporting them is 
expensive; therefore, having adequate supplies available 
locally is important to the economy of every community.
    Constructing bridges, trails, buildings, airports, power 
plants and water infrastructure requires limestone and 
aggregate for concrete, clay for bricks, copper for wiring and 
steel for framing, along with other minerals for paint, 
fixtures, pipes and appliances. And with changing technology, 
demand for new mineral commodities is growing.
    We've all heard about the rare-earth elements which are 
essential for cell phones, solar panels, electric vehicles, 
wind turbines and military applications. Currently, the U.S. is 
100 percent reliant on imports for these rare-earth elements. 
According to the USGS, in 2016 there were 20 essential mineral 
commodities on which the U.S. was 100 percent import-reliant, 
and the largest supplier of minerals imported to the U.S. was 
China.
    Much of our nation's mineral production comes from federal 
lands, especially in the West. Potash for fertilizer is 
produced from federal land in Utah. Lithium for batteries is 
produced from federal lands in Nevada. Metals such as copper 
and gold are mined in Alaska, Arizona, Nevada and Montana. And 
these are just a few examples of the dozens of mineral 
commodities contributed to the U.S. economy by federally-owned 
land. According to USGS, the value of non-fuel mineral raw 
materials produced in the U.S. in 2016 was nearly $75 billion, 
and these raw materials, combined with domestically recycled 
materials, were consumed by downstream industries to produce 
products worth an estimated $2.78 trillion.
    The primary source of information about the location and 
quantity of mineral materials for infrastructure is geologic 
mapping. Geologic maps also help reduce infrastructure costs by 
identifying landslides, sinkholes and otherwise unstable ground 
which should be avoided early in the planning stages of 
construction. State and federal geoscience agencies have 
produced geologic maps to cover about half of the U.S. at a 
level of detail sufficient for making wise land-use decisions, 
but large data gaps remain.
    Airborne data-collection technologies such as magnetics, 
radiometrics, gravity and LiDAR are helping to expand our 
knowledge of the nation's geology and are leveraging investment 
in ``boots-on-the-ground'' geologic mapping and physical 
sampling. Detailed mapping enables smart decisions on which 
lands to protect and which lands to develop.
    In summary, expanding and maintaining our nation's 
infrastructure will require minerals. Responsibly managing our 
mineral resources, reducing reliance on imports and reducing 
the risk of natural hazards will require cooperation between 
state and federal geological surveys to fill the significant 
gaps in our current knowledge. Investment in infrastructure 
will require investment in geology.
    Thank you.
    [The prepared statement of Mr. Spears follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Spears.
    Mr. Treese?

STATEMENT OF CHRIS TREESE, MANAGER, EXTERNAL AFFAIRS, COLORADO 
 RIVER WATER CONSERVATION DISTRICT, AND BOARD MEMBER, NATIONAL 
                  WATER RESOURCES ASSOCIATION

    Mr. Treese. Madam Chair, Ranking Member Cantwell, Senator 
Gardner, always a pleasure. Members of the Committee, thank you 
for the invitation and the opportunity to visit with you today.
    Senator Gardner. Welcome.
    Mr. Treese. My name is Chris Treese. I am representing my 
employer, the Colorado River Water Conservation District. We're 
responsible for the protection and development of the Colorado 
River for both Western Colorado and the state. I also have the 
distinct honor today of also representing the National Water 
Resources Association and the Family Farm Alliance. Both 
organizations that represent and advocate for reliable water 
supplies and wise water use by and for farmers, ranchers, 
municipalities and industry throughout the West.
    I commend the Committee for your timing of this hearing 
coinciding with Water Week 2017 and tomorrow being World Water 
Day, both highlighting the universal importance of water.
    I want to begin by recognizing Reclamation's historic 
investments in water storage and delivery, in fulfillment of 
its mission to settle the West and make the deserts blue. Today 
it may be tempting to let Reclamation declare victory and tell 
them their work here is done; however, Reclamation and all the 
federal agencies have been good partners with Western water 
providers and must continue in this partnership role, albeit 
with a refocused mission.
    Western water providers are anxious to pursue new water 
supply options. New investment is required in water conveyance, 
surface water storage, aquifer storage and recovery, new 
wastewater technologies, water reuse, desalination and broad 
efficiency and conservation measures.
    However, we must concurrently ensure maintenance of our 
existing but aging infrastructure. A Family Farm Alliance 2015 
study found that irrigated agriculture contributes $172 billion 
to total household income annually just in the Western U.S., 
yet this economic force is at risk from an aging 
infrastructure. Nearly all of Reclamation's irrigation projects 
are more than 50 years old, and many have already celebrated 
their centennials.
    Our organizations believe federal infrastructure investment 
must not be limited to traditional brick and mortar. To 
maximize multiple benefits and produce the greatest return on 
investment, federal infrastructure investments must include 
capital maintenance and rehabilitation for aging 
infrastructure, integrated planning, forest management, 
watershed protections and system-wide efficiency and 
conservation measures.
    My written testimony includes additional examples of the 
scale and variety of financing of opportunities as well as 
innovative financing measures necessary to preserve and advance 
Western water infrastructure. I want to stress that the water 
community is already partnered with the Federal Government to 
realize the shared goals of a stable and sustainable water 
supply.
    Regarding potential legislation, we encourage Congress to 
include water infrastructure in any infrastructure legislation, 
to maintain the tax exempt status of municipal bonds, maximize 
the use of and fully fund state revolving funds, target funding 
increases for Reclamation and the Army Corps for existing 
programs assisting water supply development, addressing aging 
infrastructure, meeting rural water development needs and 
increasing drought resiliency, fully fund the WIFIA and last 
year's WIIN Act, expand Reclamation's WaterSMART grant program 
and explore simpler processes for transferring title of federal 
projects to local agencies that have been repaying and managing 
those operations.
    And finally, I'd like to echo the Chair and Ranking 
Member's recognition of the need for improved forest management 
and resolution of so-called fire borrowing. Our national 
forests are the primary source of water for the vast majority 
of the West. Healthy and resilient forests are required for a 
safe and sustainable water supply.
    Members, we stand on the shoulders of past generations' 
investment in infrastructure. Now it's our responsibility to 
invest in the infrastructure for future generations.
    Thank you for the opportunity to present to you today. I 
look forward to questions.
    [The prepared statement of Mr. Treese follows:] 
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Treese. We appreciate your 
comments.
    Mr. Worsley, welcome.

           STATEMENT OF BRADLEY WORSLEY, PRESIDENT, 
                        NOVO POWER, LLC

    Mr. Worsley. Thank you, Senators. And my name is Brad 
Worsley. I'm the President and CEO of Novo Power.
    Biomass is very personal to me. In late 2000, my family 
completed the construction of a multi-generational home in the 
beautiful mountains of Northern Arizona. In 2002, the Rodeo 
Chedeski fire ravished over half a million acres of that forest 
burning it to the ground, included in which was the acres where 
our family home was built.
    This disaster, followed by the Wallow fire just eight years 
later, highlighted a need for action. So we became educated on 
the subject. We procured a census done on the territory of 
Arizona in the 1900s, early 1900s, and we found that the 
acreage where our home existed traditionally held 5 to 15 trees 
per acre. Today, there are as many as 2,000 trees per acre--the 
same sunlight, the same water, and the same nutrients. We have 
a very unhealthy forest.
    We were saddened by the inaction caused by the timber wars 
of the '80s and '90s, and we didn't agree with the U.S. 
Government's policy on no fire. It was a God-given way to 
manage our forests, and for 100 years we have reduced and 
limited that power and that cleansing mechanism.
    Because nothing was being done, we did something. And in 
2008 we completed the construction of a biomass power plant, 28 
megawatts in Northern Arizona, Snowflake, Arizona. That 
facility today is the keystone of the needed infrastructure for 
forest restoration. You've probably mostly have heard of the 
4FRI project, the Four Forest Restoration Initiative, the 
largest CFLR project in the country, that has a standing 
requirement of doing, or goal of doing, 50,000 acres of 
mechanical thinning annually. Last year, we did 17,000 acres 
and it was our best year.
    We are woefully behind in our attempts to get that work 
done, and the 17,000 acres that were done were because of the 
capacity generated by this singular biomass facility. We have 
about a third of the needed infrastructure in Arizona to manage 
our national forest.
    Now I've looked at all types of technologies that can 
manage biomass and I'm telling you, as my professional opinion, 
that the best way to do it is to touch at the very least amount 
of times, cut it, grind it and make power from it.
    When we do that, we are significantly reducing the air 
quality issues that are generated in these mega fires that are 
happening in Arizona and across the Western United States. We 
reduced, by almost 98 percent, the particulate matter that goes 
into the air while burned because of the systems that we have 
at our facility.
    We are also a huge resource in Arizona, potentially one of 
the only resources in restoring our national forests, and 
15,000 acres a year are treated and restored because of our 
facility.
    Mr. Treese here talked about the water infrastructure. What 
happens after forest fires is we silt out our dams and our 
reservoirs and we spend decades spending exorbitant amount of 
money to treat that water post-fire.
    We also have a huge benefit as it relates to the renewable 
energy sector. We are a baseload power. That means that we 
stabilize the grid. Well, I love solar and I love wind, but we 
are baseload and we don't destabilize that grid.
    We also have a huge economic impact. In my humble opinion, 
it's the most important 28 gigawatts generated in Arizona 
because of the forest restoration, because of the watershed 
management. A million acres of the four million acres that we 
have in Arizona that were established to provide watershed to a 
desert have burned to the ground. We cannot afford to lose more 
watershed.
    These are the types of things that we do. But without your 
help, without help building infrastructure, we're never going 
to get there. The East side of the State of Arizona runs 
without subsidy because we have the needed infrastructure. We 
have sawmills, we have pellet mills, we have a biomass facility 
and we do it without subsidy. It is not going to happen on the 
west side of the state unless there is some form of assistance. 
Now what type of assistance am I talking about?
    We need to advance the pace and efficiency of U.S. Forest 
Service action. In Arizona, we have plenty of NEPA-ready acres, 
but we can't allow acre prep to become the new NEPA bottleneck.
    We need to ensure that biomass is considered a renewable 
power.
    We need regulatory certainty in that area. People like to 
argue over that. Most certainly as it relates to forest 
restoration, it is carbon neutral. But what we're doing is 
preserving those things that are carbon receptors.
    We want to see fiscal incentives provided for biomass power 
to capture the real value it's giving to the state. It does 
more per megawatt than any other type of renewable power for 
the state of the structure.
    We'd like to see something like, 10 percent of fire 
spending, firefighting spending in previous years, spent to 
prevent fires the next year. Last year we spent almost $1 
billion. Well, how about $100 million to preserve our forests 
rather than burning them to the ground?
    We'd like to maybe see increased weight limits on U.S. 
highways, it's 50 percent of the cost of removing that biomass 
and a five ton increase, 90,000 pounds, allows for us to haul 
that material cheaper. The U.S. Government could buy the power 
directly for their military bases.
    And then, specifically in Arizona, we'd like to see a new 
RFP for 300,000 to 500,000 acres put out on the 4FRI layout and 
footprint so that we can invite new investment.
    And we can do this. And I'm open to any questions.
    [The prepared statement of Mr. Worsley follows:] 
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you. Great testimony, and I appreciate 
the contributions from all of you here this morning.
    You know, it is interesting, when you think about the 
enormous potential on our federal lands. We have heard from 
many of the specific areas, whether it is your focus on the 
biomass and what we can receive or the benefits from our 
national forests. Mr. Spears, you talk about the critical 
minerals. You talk about the elements, just the sand and the 
gravel. When Ms. Simmons wants to build a trail, she needs some 
of the stuff that you take from out of the earth there. Of 
course, we cannot do any of it unless we have water sources 
that are available, that are reliable and that are safe in 
many, many different ways. And then, of course, we have the 
recreation aspect of all of our federal lands. Again, a clear 
reminder of this multiple-use concept that we talk about.
    Oftentimes though, there is not a level of equity when you 
think about where those dollars go in managing these lands for 
multiple use. Several of you have suggested that what we see in 
shortcomings, whether it is on trails or whether it is for our 
ski resorts or in our water supply, the fact that Forest 
Service has been up against, what we call, forest borrowing for 
as many years as they have, just basically throwing everything 
out of whack and the ability to manage other aspects within 
their jurisdiction. It is very frustrating. So I appreciate 
what you have all raised.
    What I am hearing consistently though, is that what would 
be helpful from your perspective is if we can do more here to 
reduce some of the uncertainty when it comes to the regulations 
that are coming your way, to alleviate some of the delays and 
the costs that are associated with that.
    I want to ask just a general question here because when we 
are talking about multiple-use for some that want to use the 
trails or want to go skiing, they do not necessarily want to 
see a mining operation where you have gravel extraction or rock 
to provide for crushing or they do not want to see the dam 
here.
    Mr. Spears, you cited the USGS report on the Mineral 
Commodity Summaries and a recognition that, from a 
vulnerability perspective, we are headed down the road of 
greater reliance on others for the stuff that we need, whether 
it is the sand and gravel or whether it is the copper that we 
need for some of our high-tech initiatives.
    Are we all in agreement that regardless of where our 
interest is, we still need to provide for greater opportunities 
for accessing our minerals throughout the country? Do we agree 
that is a sound thing, if done properly?
    You mentioned the mapping, Mr. Spears, and the fact that we 
are about 50 percent there. But to better analyze where those 
resources are, recognizing that there are some areas where we 
are never going to touch that. Mr. Spears is saying yes, but of 
course, I expect him to say yes.
    [Laughter.]
    Mr. Spears. Well, I would like to address that.
    So, yeah, timber is managed by foresters knowing, you know, 
how many trees per acre, how many board feet per acre. So it 
requires a level of mapping and GIS. Similarly, the mapping--
the management of minerals would require knowing what's down 
there, often in the subsurface where you can't see it. So that 
requires investment in geophysics and mapping.
    But I'm not saying we need to mine the earth. I'm saying 
that we need to know what's in what places before we make 
decisions about what we're going to do with the surface of that 
land.
    And I'd just like to say that as geologists we take a 
longer-term view of things than some people do. One of my 
favorite places to go hiking in Virginia is called the St. 
Mary's Wilderness. It's a beautiful hiking trail, but when you 
get way back in the wilderness there's a little area called Ore 
Bank which was an important source of manganese ore during 
World War I. So this was only about 100 years ago there was a 
mine in this location. That mine was closed after, in the 1920s 
that mine was closed and now it's a beautiful wilderness area 
and a very popular hiking destination.
    If we look at the temporal progression of land use, it's 
not necessary that when an area is mined it's forever 
destroyed, that Reclamation is a viable response and a viable 
way of recovering land and returning it to other uses.
    The Chairman. I am going to turn to my colleague, Senator 
Cantwell, and we will have an opportunity for more questions.
    Senator Cantwell. Thank you, Madam Chair.
    I wanted to ask, Ms. Simmons and maybe others, Ms. Argust 
or others, who might want to comment on the President's budget 
that is cutting greater than one half of the land acquisition 
funds, as it relates to the Land and Water Conservation Fund 
(LWCF).
    How have you seen this program work to help us in 
maintaining lands and giving people access, and do you worry 
that this would mean reductions in some of those projects that 
you are trying to help further investments in?
    Ms. Simmons. Thank you, Senator, for your question.
    And yes, Washington Trails Association does support the 
Land and Water Conservation Fund and has seen it used many 
times over as a critical piece of building our trail 
infrastructure.
    I think one example is the Pacific Crest Trail which is one 
of the nation's most iconic trails that runs 2,600 miles 
through our nation and through a large part of our state. 
There, the trails cross through a lot of private land holdings 
and there have often been willing sellers that understand it's 
important for the management of a trail like that to 
consolidate ownership and be able to build and maintain the 
trail collectively.
    So in those places the Land and Water Conservation Fund has 
been critical. I know of other trails in our state now that 
have portions still in private ownership and there are 
landowners that would be willing to and understand the benefits 
of consolidating.
    So we have deep concerns about what's proposed, and we see 
a huge opportunity for those types of funding to be used in the 
future.
    Senator Cantwell. Ms. Argust, did you have any comments on 
that?
    Ms. Argust. Sure. I don't work specifically on LWCF but I 
would say in terms of the parks that LWCF can certainly be a 
cost savings, consolidating land parcels and also increasing 
management efficiencies for the park, reducing user conflicts, 
also increasing public access. I would also say that LWCF does 
not increase deferred maintenance. I think that's very 
important to note.
    Senator Cantwell. Yes.
    I remember an instance, I think, in Mount Rainier on the 
Carbon River. We needed to improve the trail because it kept 
flooding every year. So basically, it saved us dollars by 
making improvements and moving the trail to higher ground.
    I wanted to ask you, Mr. Worsley, you mentioned these 
issues. Obviously, the Chair and I worked very hard on trying 
to get our colleagues in the House to agree to something that 
would be a better solution.
    Do you think we need longer-term contracts? My idea, and I 
think there are many people who were interested in supporting 
it, on the Pine Pilot was to say that if we did some fuel 
reduction and gave mill owners longer-term certainty, like 20-
year contracts, they could plan and hopefully give priority to 
things like cross-laminated timber, as a way to actually store 
carbon in the new building materials. Do you think we need 
longer-term contracts with some of these mills to give them 
predictability?
    Mr. Worsley. Certainly.
    When you look at ways to efficiently process something that 
has almost no value, when I talk about this low value/no value 
biomass, not the value of why there's always uses for that, it 
generally is going to require significant capital investment in 
the ballpark of $100, $200, $300 million, in order to get the 
kind of scale that will drive costs low enough to make a profit 
on this type of material. It is impossible to go get lending on 
that kind of capital without certainty of supply, so long-term 
contracts certainly help in that area. And if you are trying to 
stimulate, like a place in Arizona, where you don't have that 
industry, you're going to have to stimulate it through long-
term contracts.
    If there's an area where there's active capital markets, 
there's no need, let the capital markets work themselves out. 
But if you are trying to stimulate an area that's in need, yes, 
absolutely.
    Senator Cantwell. And do you think that is 20 years? Do you 
know a timeframe that you think would be sufficient?
    Mr. Worsley. Well, listen, 10 years is very difficult to 
write off $300 million, so, you know, 20 years certainly helps.
    Senator Cantwell. Okay. Thank you.
    Thank you, Madam Chair.
    The Chairman. Senator Cassidy.
    Senator Cassidy. Ms. Argust, I am not sure anybody has 
spoke to what I am about to ask, but you seem the best and 
maybe Ms. Simmons after that.
    Clearly, we would like to have more money for maintenance. 
Now we can generate more money, appropriate more money, and 
also use money more wisely.
    It is always my impression that the cost of a repair at a 
government facility is 1-1/2 to 3 times that which it would be 
in the private sector, for whatever reason. Is that presumption 
true for work in the National Park Service? Is it more 
expensive to do the same repair through the National Park 
Service as if it were a private entity doing it on their own 
property?
    Ms. Argust. So let me better understand your question. Is 
it more expensive for the Park Service to do it themselves or 
to contract it? Is that what you're asking?
    Senator Cassidy. I guess what I'm asking--let me relate it 
this way. In South Louisiana if we build a levy, if the local 
municipality or the political subdivision builds a levy, it is 
going to cost $1 million. If the Army Corps of Engineers builds 
a levy, it will cost $1.2 million to $2 million. So, the Army 
Corps' involvement will increase the cost by a multiple, 
dependent on whom you speak with.
    Is that same phenomena true in the National Park Service? 
For example, if a foundation who was able to contract with 
whomever they wish without federal procurement guidelines fixes 
a road is it less expensive than if the National Park Service 
contracts for that road to be fixed?
    Ms. Argust. Yeah, to be honest I think you're best to ask a 
Park Service official that, but I will say that for major 
projects, in most cases, the Park Service does contract that 
work out.
    Senator Cassidy. Well, they would still be subject to 
federal procurement guidelines though, I presume.
    Ms. Simmons, you do trails, do you have any thoughts on 
that?
    Ms. Simmons. Well, I'm not qualified and I don't know 
enough to speak about the specifics around the cost of projects 
done by private company versus by the public agencies.
    I will say that, I think, the Forest Service, the Park 
Service and organizations like mine have been working together 
to think about creative ways to do more and stretch the dollars 
farther. And so the public/private partnerships like the one 
that my organization runs is just an example of where, in fact, 
we can bring volunteer labor with some base support from the 
Federal Government to stretch those dollars further.
    So, I don't think the answer is that it needs to be 
necessarily privatization. There are other creative models.
    And I know----
    Senator Cassidy. I have limited time, so let me stop you 
there.
    Ms. Simmons. Yup.
    Senator Cassidy. Although I would, if the staff could, kind 
of research that, I think that would be useful for us to know.
    Secondly, my brother-in-law has a camp right outside of 
Yosemite, so we are fortunate to go there once or twice every 
decade. Then I go through other places, and I see the 
concessionaires.
    Do you have any sense of whether these concessions 
contracts are, sometimes those are, kind of, legacy contracts 
which, frankly, work to the disadvantage of the federal 
taxpayer and sometimes the other federal taxpayer does okay 
with this? Do you have any sense of how the concessions 
contracts work with the National Park Service? Are they a good 
deal or not a good deal or perhaps you do not feel qualified to 
answer?
    Ms. Argust. Well, I think that there are folks who would 
like to reform how concessioner contracts are done and that is 
a hot button issue. But I think the Park Service has been 
working very hard when they----
    Senator Cassidy. Now reform suggests less than optimal and 
so knowing not hardly anything.
    Ms. Argust. I'm referring to the 1998 Concessions Act.
    But I do know that when the Park Service is renegotiating 
agreements and taking in bids, they are working very hard to do 
a better job, in for instance, making sure that concessioners 
wrap in deferred maintenance into those agreements and 
contracts. That is not always the case and I'm making this 
applicable to deferred maintenance because that's what I know 
most about.
    But, for instance, in some cases you cannot get a feasible 
contract that gets a concessionaire to do all the deferred 
maintenance because it would not be economically viable for 
them. In the case of Yosemite, Ahwahnee Hotel, which is 
currently called something else, the Majestic, I think, that 
has $51 million of deferred maintenance and a concessioner 
would not take that on. So things like that do need to be taken 
into account when the Park Service makes an agreement with 
concessioners.
    Senator Cassidy. Okay, I am out of time. I yield back. 
Thank you.
    The Chairman. Thank you, Senator Cassidy.
    Senator Wyden.
    Senator Wyden. Thank you very much, Madam Chair.
    And I want to thank all our witnesses for talking about 
potential for outdoor recreation.
    I want to begin when I was Chair of this Committee and we 
started talking about the potential for recreation. What I was 
really stunned by was how the framework of laws governing the 
various natural resource agencies just had not kept up with the 
times. It was not as if somebody at one of these agencies got 
up in the morning and said, I want to spend my day being rotten 
to people who are involved in skiing. But the problem was that 
the laws were written for a time, really of the last century, I 
think that is the most charitable thing you can say.
    After listening to folks at home and some of the 
organizations you all work with, I have introduced a bill 
called Recreation, Not Red Tape. The idea is to modernize the 
system so as to get more people outdoors more quickly. Two of 
the provisions, I think, relate directly to some of what I've 
heard this morning.
    The first is we ought to require all agency permits and 
passes to be made available online. I have heard stories that 
just curdle your blood about how people get up in the middle of 
the night to wait in some kind of line and after they are done 
with that line, they go on to some other kind of line. So the 
availability of online pass sales has been shown to increase 
the number of passes that are actually sold. There is a pilot 
project going on in our part of the world to test out the 
online sales. I think we are going to hear more about that. But 
to me, that ought to be non-negotiable. You ought to be able to 
get all your passes online.
    The second provision that Senator Gardner also has an 
interest in, we are going to see if we can script Senator 
Daines into this too, is a provision to retain all ski area 
permit fees collected by the agencies.
    The way it would work is instead of sending the money 
raised by ski area permit fees to the Treasury, the money would 
stay with the agencies to use for things like maintenance 
projects, visitor amenities and processing permits. So the fee 
visitors already pay would go back to maintaining the very 
mountaintops they were collected on.
    The question for you, Mr. Bonar, is how would the ski area 
permit fix, the provision that is in the Recreation, Not Red 
Tape bill now, how would that help ski areas make the 
improvements to ski infrastructure and how would that end up 
benefiting the public?
    Mr. Bonar. Senator Wyden, thank you for the question.
    The Forest Service simply, right now, does not have the 
bandwidth or the staff to review ski resort proposals. We need 
to be replacing old lifts, old infrastructure. We need to make 
other improvements within our ski area permit areas, and the 
Forest Service right now, because most of their funding or so 
much of their funding is now used for fighting fires, they 
simply don't have the staff to do that.
    Senator Wyden. I appreciate your making a plug for the 
bill. Senator Crapo and I have to stop fire borrowing. Senator 
Murkowski and Senator Cantwell and Senator Daines, we are all 
involved in the plot on that. But go ahead, I interrupted you.
    Mr. Bonar. Oh, that's okay.
    So, you know, we see the fee retention as being crucial for 
us to be able to invest money and be able to move forward on 
these critical needs.
    Right now we have, as I said in my statement, many ski 
resorts that need to replace old ski lifts and aging 
infrastructure in other ways. It's critical that we are able to 
make those improvements for safety reasons and also because 
we're seeing increased visitation year-round at all the 
resorts. And it's really important that we're able to move 
forward on those projects by increasing that funding for the 
Forest Service staff.
    Senator Wyden. So you would support the provision in the 
bill strongly?
    Mr. Bonar. Yes, I think all the ski resorts would because 
of this backlog of projects.
    Senator Wyden. Well, I can just tell you, in the Pacific 
Northwest no new projects are being considered by the Forest 
Service. We have highlighted the example in Mount Hood, the 
meadows, and I know you touched on it as well.
    I think the point really is that unless we move to, sort 
of, update the recreation policies for the times, I think, we 
are going to see more and more of these challenges where there 
is gridlock on permits, people cannot get them online. These 
are common sense, bipartisan type ideas.
    I thank you, Madam Chair, and I thank our witnesses and am 
sorry to be in and out this morning. I think what the Chair is 
working on is an extremely important area and we appreciate 
your input.
    Mr. Bonar. Thank you, Senator.
    Senator Wyden. Thank you, Madam Chair.
    The Chairman. Thank you, Senator Wyden, I appreciate it.
    Senator Daines.
    Senator Daines. Senator Wyden, you should join the Skier's 
Caucus here, by the way.
    [Laughter.]
    We would love to have you. The Chair is an excellent skier. 
I can testify to that fact.
    Madam Chair, thank you for having this hearing today.
    I serve as this Committee's National Parks Subcommittee 
Chair. It is one of my top priorities. Working alongside Chair 
Murkowski and my colleagues on this Committee, along with a 
fellow Montanan, Secretary of the Interior Zinke, we are going 
to be working to reduce the National Park Service maintenance 
backlog.
    As Congress and the Administration consider ways to 
strengthen the nation's infrastructure, I am happy that 
National Park Service deferred maintenance is now part of that 
conversation. FY'15 numbers estimate it to be $11.9 billion. We 
know the number has only increased as that data is over a year 
old.
    Fifty percent of the deferred maintenance backlog is roads. 
There are over 3,400 water systems with deferred maintenance 
needs and this backlog has steadily increased over time. I 
believe Congress must act.
    The Secretary of the Interior, Secretary Zinke, grew up in 
the shadows of Glacier National Park. He grew up about 30 
minutes away from Glacier National Park. I grew up about 90 
minutes away from Yellowstone National Park. So this is a 
product of our own experiences, fellow Montanans and how we, as 
Americans, love our national parks. I am committed to fighting 
for as much appropriation as possible, as a member of the 
Interior Subcommittee, alongside Senator Murkowski.
    I would also like to explore some creative ways we can 
facilitate new investments in our maintenance backlog. We are 
going to have to be creative, whether it is more public/private 
partnerships or the use of innovation and technology.
    In Senator King's home State of Maine, there is a pilot 
project at Acadia National Park which began just last year to 
collect entrance fees through online passes. Senator Wyden 
mentioned this online pass idea. In fact, I worked for 12 years 
in the cloud computing business, and I am a firm believer that 
we do need to leverage some modern technology to solve some of 
our constraints and the problems that we face.
    The National Park Service maintenance backlog is no 
different. Nowadays everybody wants to share their experience 
on Snapchat, on Instagram, on Facebook and that just continues 
to build more interest in our parks which is a good thing.
    In Montana we saw record visitation rates last summer. 
During peak visitation times, to keep traffic moving, sometimes 
they would just wave cars through into the park because if you 
saw the lines and you have families all excited to come to our 
national parks, who wants to wait in a long line of traffic 
when you cannot wait to get in to see the wildlife or the 
wonders of our national parks? What happens? The parks lose 
much needed revenue and this is for good reason. Traffic gets 
so bad in summer months it does become a public safety issue, 
and it puts a serious strain on our infrastructure.
    With that as background, I want to start with Mr. Treese. 
In your written testimony, you share multiple cases with 
opportunities and studies to expand water infrastructure that 
supports western communities. You did not mention any in 
Montana, but I have a couple to add. One will be the Dry-
Redwater and the Musselshell-Judith water systems. There are 
over 35,000 Montanans and North Dakotans whose current public 
water system does not meet safe drinking water standards.
    This afternoon I am introducing legislation, the Clean 
Water for Rural Communities Act, to authorize Reclamation to 
construct both of these projects.
    My question is, would you please elaborate on the 
importance of clean, reliable water to health and the economic 
being of rural America?
    Mr. Treese. Thank you, Senator. I appreciate that 
opportunity.
    Yes, rural water. I live in rural Colorado and am familiar 
with the projects you talk about. Rural water is critical and 
perhaps important in this discussion because rural water may be 
one of the areas that doesn't make the headlines that some of 
the infrastructure that has been mentioned nationally might 
garner or might be broader recognized. But rural water is 
critical, critical to the health and welfare of the United 
States, as well as our economy.
    I appreciate your legislation. I had an opportunity to talk 
to staff about your legislation last night. I'm impressed by it 
and look forward to supporting it.
    Senator Daines. Thank you, Mr. Treese.
    As I wrap up I am going to ask you a question, Mr. Worsley. 
In Montana, we have seen harvest in our national forests 
decline by more than 70 percent versus the past generation. The 
number of mills in my home state declined; it went from 30 to 
eight. When I grew up we had 30, now we have eight. There are 
seven million federally-controlled acres in Montana. They are 
at high risk of wildfire.
    My question. Can you speak to why it is so critical to 
retain mills and a wood product workforce in a state like 
Montana?
    Mr. Worsley. Well, not only is there huge economic benefit, 
but we have a natural resource that is going to waste.
    There was a question earlier about whether we support 
mining for minerals. We sometimes do a horrible job of 
utilizing and maximizing the use of our natural resources and 
burning to the ground hundreds of millions of acres is align to 
that reality. And so, there's a huge economic benefit. There's 
a use of natural resources that is critical. And a lot of times 
once this stuff goes away, it doesn't come back. And so, once 
that infrastructure closes, to get it restarted is just almost 
impossible.
    Senator Daines. Yes, we have seen that in Colorado.
    I am out of time, and I know Montanans are tired of 
breathing smoke in the summertime and then the damage 
environmentally to our watersheds.
    Mr. Worsley. That's right.
    Senator Daines. And wildfires as well.
    Thank you, Madam Chair.
    The Chairman. Thanks.
    Senator Stabenow.
    Senator Stabenow. Well, thank you, Madam Chair, for this 
hearing.
    I feel this morning, after listening to each of our 
witnesses, I want to say, Amen, to each of you and also 
indicate that it is not only National Water Day, it is National 
Ag Day. And we will not have agriculture, we will not have food 
unless we have an abundant, clean water supply.
    And so, there's a lot in common. As the Ranking Democrat on 
the Agriculture Committee, when we look at conservation efforts 
on privately-owned land which are managed through the 
Agriculture Committee, again, so much in common.
    There is no question, I could go right down the line, in 
terms of our national forests and what they mean in terms of 
jobs and outdoor recreation. I am very concerned about the cuts 
in President Trump's budget as it relates to those things.
    I invite you all to Sleeping Bear Dunes in Northwest 
Michigan, if you have not been there, to see God's country up 
north. In fact, anywhere in Michigan is God's country, but we 
have absolutely beautiful places.
    When we look at infrastructure, yes, it is not only trails, 
it is not only all of the things that I support that you have 
been talking about, but we have large infrastructure projects 
like the Soo Locks where commerce comes through the Great 
Lakes. Right now, if the large lock, Poe Lock, shuts down or 
has a problem, there is no second lock that will allow the 
barges to come through to bring the minerals or to focus on the 
other areas. So infrastructure, in many ways, relates to what 
we are doing on public lands and private lands and water, and I 
do not think we have focused on that enough.
    I do want to talk about water, specifically, as you can 
imagine being surrounded by water in Michigan.
    Mr. Treese, I completely agree with what you said about 
water being the lifeblood of our nation. And certainly, in 
Michigan, the Great Lakes are part of our DNA and also part of 
the backbone of our economy.
    I have to say in the President's budget, and this is not 
for the hearing today, but the President completely zeros out 
the Great Lakes restoration initiative, zeros out monies that 
we have been using through legislation developed, on a 
bipartisan basis, to protect our waters in our Great Lakes. We 
intend to do everything possible to make sure that that 
elimination of funding does not happen for a number of reasons.
    But along with the zeroing out of the Great Lakes 
restoration initiative is a 15 percent cut to the U.S. 
Geological Services, which also is critically important to the 
Great Lakes as well as everything else that you talked about 
Mr. Spears, in terms of access to minerals and so on.
    But when we look at the fact that President Trump's cut 
would be the lowest funding level for the USGS since Fiscal 
Year 2002 and yet, the pressures, the demands, the challenges 
on our Great Lakes continue to grow. I am very concerned that 
what the U.S. Geological Survey has done to protect the Great 
Lakes, developing toxins to kill sea lamprey, for instance, 
without harming other fish. Now we have the Asian Carp which is 
a huge challenge and threat to us in terms of fish and boating 
and quality of life and water.
    When we look at researching how to get the Great Lakes fish 
populations to thrive and the fact that we have over 75,000 
jobs directly related to fishing in Michigan and hundreds of 
thousands of jobs indirectly related to fishing, not counting 
boating and other activities outdoors or algae blooms that 
threaten the drinking water of our 40 million people a day that 
get their water from the Great Lakes. Senator Portman and I co-
chair the bipartisan Great Lakes Task Force, and he certainly 
can speak to the fact that algae blooms have left 400,000 
people in Toledo without drinking water.
    So, all of that to say and actually, Mr. Treese, you may 
assume I am directing this to you, which I assume you are 
concerned about the cuts. But actually, I wanted to ask, Mr. 
Treese, just in terms of the importance of federal assistance 
and support, as it relates to water projects. Obviously in 
Colorado it is not the Great Lakes, but certainly, when we look 
at western water managers and the importance of focusing on 
interstate waters and so on, I wonder if you might speak from 
your state's perspective about why it is important to be able 
to invest in protecting our water.
    Mr. Treese. Thank you, Senator.
    Colorado covets the amount of water you have around the 
Great Lakes.
    [Laughter.]
    Senator Stabenow. And you cannot have it.
    [Laughter.]
    Unless you want to move to Michigan--we would love to have 
you move to Michigan.
    Mr. Treese. I understand, thank you.
    I think the regional initiatives you mentioned, they are 
notable for their size, their multi-state, multi-party 
involvement, the Chesapeake Bay Initiative in this area.
    Senator Stabenow. Right.
    Mr. Treese. And the Colorado River efforts, the multi-state 
efforts that are involved in the Colorado River, are all 
critical. And the Federal Government is an essential partner in 
those. The local communities, the states and the Federal 
Government must be equal partners in those processes if they 
are going to be successful. To have the Federal Government 
unilaterally withdraw or significantly decrease their 
participation, financial and human resource participation, is 
to, frankly, doom those initiatives to failure.
    Senator Stabenow. One of the things I wanted to mention as 
well on water infrastructure is that, again, with my 
agriculture hat on, rural water and sewer projects which are so 
critical to my hometown of Claire and to communities across 
America, small towns across America, is zeroed out in the 
President's budget which is also stunning to me.
    I mean there seems to be a wholesale attack, Madam Chair, 
on water infrastructure and I know we are going to want to work 
in a bipartisan basis to make sure that we have support for 
that infrastructure going forward in the budget.
    Thank you.
    The Chairman. A big part of our consideration.
    Senator Flake.
    Senator Flake. Thank you.
    Mr. Treese, I assure you in Arizona we covet the water you 
have in California, or Colorado, so--
    [Laughter.]
    So, anyway, it is all in where you are.
    I am sorry for not being here earlier. There was a Gorsuch 
hearing going on a few doors away, so that is occupying a lot 
of time.
    It is nice to have Brad Worsley here. Thank you for making 
the trip from Arizona.
    In Arizona, we have had two once-in-a-lifetime fires in the 
last 15 years. And if you are from Northern Arizona, as I am, 
you have seen the devastation that has occurred there. It has 
been a tough thing to watch.
    After the Rodeo Chedeski fire back 15 years ago, we 
realized that we needed industry in Northern Arizona in order 
to partner with the Federal Government or we simply were not 
going to do the amount of forest restoration that we needed.
    Fortunately some industry has stepped up to the plate, 
including Novo Power and others that Brad is very familiar 
with. We have to have industry, private industry, that is 
functioning, and the infrastructure that is needed there--the 
infrastructure that is needed in terms of roads and what not to 
get wood out of the forest is vital here.
    I want to thank Brad for serving on my Healthy Forest 
Advisory Panel, and I am looking forward to suggestions that 
you have. I have read the written testimony, but I was 
interested in hearing some about the role of transportation, 
the cost, to your industry. You have advocated there is a pilot 
project in Arizona to increase weight limits on state roads, 
and I wanted to hear from you on how a similar program on 
federal highways could help existing industry reach deeper into 
the forest to be able to treat those areas that need to be 
treated.
    Mr. Worsley. You bet.
    Let me first, I know it's decorum to praise your local 
Senators, but I have to tell you, Senator Flake and Senator 
McCain give a disproportionate amount of time. I sat with the 
biomass group this morning and they were just so shocked that I 
speak with them regularly and their efforts on our behalf. So 
we are definitely appreciative of our two sitting Senators.
    Over 50 percent of your cost to move biomass is in 
transportation. And so, a small addition to what a highway can 
handle, go from 80,000 pounds to 90,000 pounds, is a 20 percent 
increase in haul capacity. So you're talking a 20 percent 
benefit on the largest expense in hauling biomass. The state is 
doing it and they've seen it work successfully. It's been a 
huge success.
    Unfortunately, our trucks can only go some routes. You 
know, if we've got a problem on the west side of the state, 
we've got to see Interstate I-17 and I-40 and others increase 
by 10,000 pounds in order to see that same savings that we're 
seeing on the east side of the state.
    Senator Flake. It sounds like you are suggesting we could 
take advantage of the existing infrastructure of the Forest 
Service, if they did a better job, the Forest Service, in 
considering the cost of transportation, given the locations of 
the mills.
    How would you suggest that they better incorporate 
transportation costs in their planning?
    Mr. Worsley. Yeah, I think you've raised an important 
point. This isn't any more dollars. This is--these roads can 
handle, they're engineered to handle this kind of weight. And 
given its impact to the state, I think it would be a zero-cost 
proposition.
    But it's also important that the state--that the Federal 
Government, the national forest, takes the consideration to 
haul distances. So when they're offering products they can't 
say, here's everything that's 100 miles from your mill. They 
have to take into consideration we can share costs, spread 
costs, but we need stuff closer and stuff farther away and 
there needs to be that balance in their planning.
    Senator Flake. We have had issues in Arizona with the cost 
of doing NEPA, doing the prep work there required by NEPA, to 
make sure that we have acreage that has passed the 
environmental test to be able to access and be treated.
    You mentioned in your testimony that we cannot allow prep 
to be the new NEPA. Can you explain what you mean by that?
    Mr. Worsley. I can.
    Most states deal with getting NEPA-ready acres. We have 
over 500,000 NEPA-ready acres in Arizona, and by 2019, it will 
be darn near a million. Now what we have to do is make those 
acres available, and prep is becoming the new NEPA. The Forest 
Service is grossly out of date as it relates to technology and 
efforts. To go paint every single tree is such a waste of time 
and resources. The technology is there, and industry is 
pressing. We can, through GPS and tablet technology, tell you 
what we cut, how we cut it, when we cut it, where we cut it, 
and just provide designation by prescription or by diameter and 
let us go to work and save all of that money and make that 
acreage available. So absolutely, we cannot let prep become the 
old NEPA bottleneck in Arizona.
    Senator Flake. Right. Well, thank you.
    If I may, in Arizona, we have, with the ponderosa pine 
forest, a healthy forest traditionally has about 20 trees per 
acre. We have areas with 200 trees per acre.
    Can you talk some about the areas that you have been able 
to go in, the difference between that acreage in terms of the 
fire hazard, fuels reduction you have been able to do, compared 
to the old or what we have seen over the past couple of 
decades?
    Mr. Worsley. You bet, Senator Flake.
    I'll increase that statistic. We have 2,000 trees per acre 
in some areas, and so we have a situation where we have a gross 
overgrown.
    Just think about being able to drive a covered wagon 
through the forests of Arizona. That's what they came into in 
the 1900s. Today you couldn't drive a motorcycle through those 
forests, so we are significantly reducing on that.
    If you ever walk onto a forest fire, post-burn, what's 
left? What's left is the big trees. What burned to the ground 
was all of this high hazard fuel, all of this biomass.
    So, when you now drive up the rim, which I know you do 
often, you can see through that forest again and that's because 
of the work we're doing, not in removing big trees, but in 
removing trees that are three feet tall and one inch around and 
doing that in a high scale and with mechanization in order to 
make it cost-effective.
    Senator Flake. Well, thank you.
    Unless any of you want to answer a question on separation 
of powers or the Chevron doctrine, I better get back in to the 
other hearing. So thank you.
    [Laughter.]
    The Chairman. Thanks, Senator Flake. We appreciate the work 
you are doing over in Judiciary too.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you, Madam Chair. Thank you for 
putting together this esteemed panel of witnesses on such an 
important topic.
    As you may or may not know, I represent the State of Nevada 
which has the largest amount of public lands in our state, in 
the country. So the topics that we are discussing today are 
very, very important, not only to me, but to many of the 
constituents that I represent.
    I want to see the outdoor recreation industry expand and 
provide folks visiting my state an incredible experience in 
exploring the wonderful beauty of Nevada, and I believe we need 
to preserve and repair our infrastructure in these natural 
areas for future generations.
    I also know that Nevada is one of the driest states in the 
nation with only 9.63 inches of average annual rainfall, so we 
are particularly focused and innovative when it comes to our 
water supply and resources, particularly, since we have the 
lowest allotment of water along the Colorado, as you well know.
    Then we also have, and I am very proud of, our mining 
industry in the State of Nevada. I graduated from the 
University of Nevada, Reno. At the time, it was the Mackey 
School of Mines--one of our departments and colleges there. It 
is now the Mackey School of Earth Sciences and Engineering.
    I appreciate the comments today and would like to start 
with Mr. Spears. You talked a little bit about airborne data 
collection technologies. I think, as we talk about updating our 
infrastructure, the use of technologies is so important. This 
helps us really, kind of, pinpoint areas where we can manage 
our natural resources and everything else that we just talked 
about and our great opportunity to utilize the outdoors. Can 
you talk a little bit more about how you think that airborne 
data collection technologies and the use of it will help and 
benefit mining operations and the economy in general?
    Mr. Spears. Sure, Senator.
    Putting people on the ground is very expensive. Putting 
planes in the air is also expensive, but you can cover vast 
areas at the same cost as putting people on the ground.
    There's no substitute for having people on the ground 
actually collecting physical samples, but to cover large areas 
with a single kind of technology such as LiDAR which gives you 
centimeter scale model of the surface of the landscape, there's 
really no substitute for that.
    But also, less well known technologies like arrow 
magnetics, the ground is naturally magnetic. Arrow 
radiometrics, the earth naturally glows in certain wavelengths 
of the electromagnetic spectrum. We can fly over with passive 
techniques just observing the natural background, physical 
properties that the earth is already displaying, and tell 
something about what's down there.
    For example, magnetics will tell you about the presence of 
iron, certain iron bearing minerals, like magnetite, that will 
show up from the air from a mile up you can tell how much 
magnetite is in the ground. And magnetite is often a leader, an 
indicator mineral, for other things such as copper or zinc or 
lead.
    So investment in airborne technologies can be a very 
efficient way of giving us a picture of our subsurface 
infrastructure, subsurface resources.
    Senator Cortez Masto. Thank you.
    Mr. Treese, I want to focus a little on the Bureau of 
Reclamation. Do you think that the Bureau should integrate its 
water supply management project grants into a regional 
watershed plan? The reason why I ask that, and a couple of 
things I think we do an incredible job, at times, working 
together with other states and regionalizing, I think the 
states do, in trying to work together to manage, but I am not 
sure it is always done at the federal level as well. I would 
like your thoughts with respect to the Bureau of Reclamation.
    Mr. Treese. Thank you, Senator.
    Yes, I absolutely agree. I believe the new Farm bill has a 
regional conservation partnership program. My district has 
taken advantage of one of those competitive grants.
    It is a regional--it has a goal of regional cooperation and 
interagency cooperation. We've been successful in seeking and 
receiving the cooperation of local districts and the state.
    We have been less successful in receiving the cooperation 
of the Department of Agriculture and the Department of the 
Interior in realizing the goals of that grant, and I think that 
an explicit statement in the funding of some of their programs 
and coordination between the departments is imperative for the 
success of the federal investment.
    Senator Cortez Masto. Thank you.
    I see my time is up. I appreciate the comments today. Thank 
you so much for appearing before the Committee today.
    The Chairman. Thank you.
    Senator Gardner.
    Senator Gardner. Thank you, Madam Chairman. And thank you 
to all the witnesses for your time and testimony and work 
today. I appreciate the opportunity to learn from you about how 
we can work together in the future, on water issues, 
infrastructure issues and make some great things happen.
    Welcome, Mr. Treese, to the Committee. I appreciate your 
expertise over the years in working with you on a number of 
policies affecting what is the most important river, waterway, 
in the Western United States, the Colorado River.
    The entire Colorado River Basin feeds an incredible 
population, economy, agriculture, resource issues, you name it. 
And your working advocacy is truly appreciated. But it also 
means that effective water management in the West is more 
critical than ever as the growing states of Nevada, Utah and 
Colorado continue to rely more and more heavily on 50-year-old, 
60-year-old, 70-year-old infrastructure projects.
    The Western states are some of the fastest growing in the 
nation. California and beyond have been plagued by significant 
drought over the years and resource challenges.
    Colorado is a unique state when it comes to our water. We 
are the only state that does our water law the way we do, or 
headwaters, not just the Colorado River, but the Platte, the 
Arkansas, the Rio Grande, Republican River basins, one area of 
agreement for water managers representing all those river 
basins in Colorado is the need to continue our investment in 
infrastructure. So we have a couple of challenges facing water 
infrastructure in Colorado.
    One of them is the permitting process and then aquatic and 
nuisance species. The projects in Colorado like the Northern 
Integrated Supply Project, Gross Reservoir Expansion, others, 
on the Western Slope as well, began their federal permitting 
process years ago, and just now, still do not have final 
permitting approval, final approval.
    So I would ask you two questions. Number one, can you 
discuss the impacts of federal permitting process on 
infrastructure development with regard to timelines, long-term 
planning decisions and economic costs? And number two, the 
invasive species issues and the impact they could have on 
Colorado's water infrastructure?
    Mr. Treese. Thank you, Senator Gardner, thank you for the 
kind words.
    Yes, first to the permitting issues. The expense of 
permitting has multiplied the cost of projects, projects that 
were budgeted both in time and dollars have had, have seen, 
tremendous delays. They've seen multi-year delays, all 
resulting in additional costs and less certainty that the 
Chairwoman mentioned, as an important element of any natural 
resource project. That, the loss of that certainty and the 
expense associated, eventually gets passed on to the consumers, 
and that has been an impact throughout the West.
    The invasive species, a critical issue. Colorado is one of 
the few states, essentially one of a handful of states, along 
the spine of the Rockies that is not currently infected by the 
Zebra or the Quagga mussels. Nationwide, they have colonized 
waterways and clogged infrastructure. There is no simple, cheap 
or permanent solution to the remedy once infected.
    The efforts to prevent and through, primarily through, 
inspection have been successful in Colorado and New Mexico, 
Idaho, Wyoming. And I think, again, the federal partnership is 
critical. We have enjoyed it in the past. We have lost it in 
the recent past. And that partnership with federal involvement 
in federal facilities and others, all is connected, as you 
described that Colorado is the headwater state. If you infect 
the Colorado River, if you infect the Platte, the Arkansas, 
downstream states are going to suffer commensurately.
    Senator Gardner. Mr. Treese, I think in some of the studies 
on infrastructure needs in Colorado that have been performed 
over the past several years, one study identified, I think it 
was, the state-wide water supply initiative, the second phase 
study, identified around $15 billion of water infrastructure 
needs just to meet the next two decades of projected municipal, 
industrial, agricultural need in Colorado. Is that still a 
ballpark figure today?
    Mr. Treese. It is.
    Senator Gardner. That is $15 billion that we need just in 
Colorado alone in water infrastructure. So this is a critical 
conversation that we are having to meet the economies', 
communities', industries' needs in Colorado and, of course, 
even more outside of the state.
    Thank you, Mr. Treese, for being here today.
    Mr. Bonar, thank you again for talking about much needed 
infrastructure issues at our ski resorts and our national 
forests.
    Colorado, home to the White River National Forest, a number 
one, most heavily used forest in the country, home to a number 
of great recreation opportunities, both in the summer and the 
winter. Of course, with the passage in 2011 of the Ski Area 
Recreational Opportunity Enhancement Act that you mentioned, it 
has opened up even more opportunities for families to enjoy the 
great Colorado outdoors.
    Vail Resort is planning on investing a total of $80 to $85 
million for their summer program alone, but what I am hearing 
from some of these other ski resorts in Vail and others in 
Colorado is that the Forest Service simply does not have the 
ability, because of resource demands on the Forest Service 
budget, to meet the requirements that they have, in terms of 
permitting and staffing issues that are going to be needed if 
they invest $85 million.
    What does an approach to ski fee retention mean? What does 
it mean to you? You talked about it in your opening statement, 
but what does it mean to you and how can Congress help build 
the infrastructure necessary for the ski industry while not 
simply increasing the number of Forest Service employees?
    Mr. Bonar. You know, we would just simply like to see the 
fees that all the ski resorts pay, in Snowbird's case it's 
about $250,000 a year, for the use of the land. We'd like to 
see a portion of that stay with our local forests so that they 
can more adequately staff the positions that a lot of those 
have been eliminated. We would like to see those staffed up 
again so that they can make the adequate analysis that they 
need to make on all the backlog projects that we have, whether 
they're summer projects or winter projects.
    Senator Gardner. Very good. Thank you, Mr. Bonar.
    Thanks, Madam Chair.
    The Chairman. Thank you, Senator Gardner.
    I want to go back to you, Mr. Spears, for a moment 
following on Senator Cortez Masto's questions about mapping. 
Again, we are talking about an infrastructure package coming 
out of the Congress that could potentially be huge, perhaps as 
much as a trillion dollars, I don't know for sure.
    [Laughter.]
    I do not know whether that is where we are going to end up, 
but right now there is a big focus, and rightly so, on aging 
infrastructure, inadequate infrastructure, and how we build it 
out. Again, knowing where to build it is important, and knowing 
that we have those resources that will then be required to 
build it are equally important.
    It was just a couple of years ago we celebrated with a big 
ceremony in a hangar with cakes and balloons the fact that 
Alaska was now finally 57 percent mapped. Now I don't know 
where you celebrate 57 percent of anything--
    [Laughter.]
    But we did it in Alaska because it was like oh, we are just 
a little more than half way there. But that is just mapping the 
terrain, so we have a long ways to go. Understanding and being 
able to inventory what it is that we have so that we move 
forward smartly with infrastructure is really important.
    You have talked a little bit about some of the technologies 
that can help us more readily and hopefully less expensively 
identify this, but it seems to me that we could be in a 
situation where we are in such a hurry to get shovel ready 
projects moving that we have not done enough on the front end 
in terms of making sure that we have got good inventory 
understanding and mapping. Am I alone in my concerns there or 
do you think we are doing okay?
    Mr. Spears. You're not alone, Madam Chair.
    The fact is the U.S. Geological Survey currently invests 
about $25 million a year of its roughly $1 billion budget in 
geologic mapping, a small fraction of that, about $5 million a 
year, goes to the states for cooperative programs and is 
matched by the states. It's a relatively small investment in 
something that means so much to this country.
    With just a modest increase in that program we could 
rapidly accelerate the percentage of our country that is 
understood geologically in terms of its mineral resources and 
natural hazards.
    The Chairman. Well that is certainly something that we 
would like to continue the work on. It is something we have 
been leading on, but I think you are right, we need to be doing 
much more in that vein.
    Speaking a little bit about public/private partnerships 
leveraging dollars, I think we recognize that we are in a 
budget environment where it is just tough around here. As we 
saw from the skinny budget that was laid down, there is a lot 
in it that a lot of us really do not like because it is going 
to impact the programs and priorities that, for many of us in 
our parts of the country, are very, very key to our economy and 
really key to our quality of life.
    As we talk about the infrastructure challenges on our parks 
and the public lands, we have done some things recently, 
specifically as it relates to national parks, with 
appropriations last year. We had the Centennial Challenge 
account, which received a $5 million increase. ONPS got an 
increase of $43 million--this is where we do the repair and 
rehab as well as cyclical maintenance, so that was a six 
percent increase. The construction account received a $112 
million increase, which was an 81 percent increase. But even 
so, even with these small and, believe me, when we are talking 
about a $12 billion hole, it does not get us there. We 
recognize that it is not just through the appropriations 
process, but it is how we are leveraging, how we move toward 
these public/private partnerships.
    Within the Park Service, Ms. Argust, is there more that we 
can be doing administratively? I recognize that legislation 
around here is usually just a long time in coming. Is there 
more that we can be doing administratively to improve the 
infrastructure, specifically, within the Park Service and 
greater areas where we can tap into this public/private 
partnership that perhaps we just have not hit yet?
    We have the Centennial Act's Challenge Fund, I think, that 
we can look to. I do not know whether that is being accessed to 
the degree and to the extent that is most effective, but if you 
can comment on that, please?
    Ms. Argust. Right.
    I think there are some things that can be done, but again, 
I will point out that they do need staff, right, to implement 
some of these ideas.
    Let me just start with, for instance, their volunteer 
programs. They could do more with that. If the volunteers are 
able to do maintenance programs that are more detailed, if they 
had volunteers and volunteer coordinators in each region. Right 
now, they have one volunteer manager for the entire Park 
Service, who is in the DC office, so it makes it difficult to 
leverage and coordinate all those volunteers.
    The Chairman. Let me ask about that, and maybe Ms. Simmons, 
you might want to jump in here.
    Because we had a situation a couple years ago where the 
Forest Service budget decreased. They maintain cabins, Forest 
Service cabins, that people can visit. The community of 
Ketchikan saw that because of the budget cuts that the Forest 
Service was proposing, basically, dismantling some of these 
Forest Service cabins. The volunteers said, hey, wait a minute, 
we can step in here. We can provide for the upkeep, and it 
seemed like a perfect fit.
    As it turned out, the hoops that a volunteer had to jump 
through in order to qualify to be an acceptable volunteer to 
maintain these cabins, whether it was being able to demonstrate 
that you could safely operate a chain saw, going through a 
safety course that most people would say, well, wait a minute, 
I am an outdoorsman, I am a woodsman, I don't necessarily carry 
my red cross card with me everywhere. It was very frustrating 
to the local people because the agency was so concerned about 
liability and the volunteers were saying, hey, I just want to 
make sure that this cabin is going to be there for us.
    Are we making things too complicated for our volunteers? I 
appreciate what you are saying about the need to have somebody 
that organizes it, absolutely, but is it working like we need 
it to?
    Ms. Argust. So, instead of in this case, talking about 
volunteers, I'll talk about some of the partner groups and 
friends groups who do a lot of work and projects for the Park 
Service and provide funding.
    What we've heard is sometimes the paperwork can be a 
burden. They could do more if there wasn't that paperwork. Some 
of the friends groups don't have the staff to do that or the 
friends groups themselves don't have that capacity so that can 
be an issue that we should be thinking about.
    I do want to talk about opportunities with public/private 
partnerships. I think the Park Service really is trying to use 
public/private partnerships and agreements to address the 
backlog, but there are obstacles to that. In some cases, you 
have parks that have fantastic friends groups that can do a 
lot. In other areas, there aren't any friends groups. The 
Martin Luther King historic site in Atlanta doesn't have a 
friends group or you might have regions where they have friends 
groups but they're relatively small and they just can't put up 
the matching funds, say for Centennial Challenge projects. So, 
those are issues.
    And also, to be frank, some friends groups or other 
partners groups and philanthropists just don't want to fund, 
you know, sewage systems. They don't want to fund roads, and 
that's understandable.
    I should also point out with corporate partnerships, there 
is a public perception problem. People hear parks, they hear 
corporate partnerships and there is a concern that that's going 
to lead to a banner across Mount Rushmore. That is not the 
case.
    The National Park Service is working with the National Park 
Foundation. They're doing some great work with corporations, 
and we should be encouraging that. It is not going to solve all 
the repairs needed for infrastructure by any means. We're going 
to have to rely on appropriations, but we should be encouraging 
more of that type of partnership.
    The Chairman. When I think through the Centennial Act, we 
do have some opportunities there. But how we help shape and 
guide some of that, I think, remains to be seen.
    Ms. Simmons, can you comment on what we can be doing to 
make sure that volunteers really do feel welcome, whether it is 
paperwork or whether it is the agency saying thanks, but no 
thanks?
    Ms. Simmons. Thank you, Madam Chair.
    Well I want to be clear that we do not work on structures, 
our volunteers don't work on structures and so, I can't comment 
to the specifics of restoring cabins.
    The Chairman. But you build trails, you----
    Ms. Simmons. But we do build trails.
    The Chairman. Yes.
    Ms. Simmons. And I think we can say quite definitively, we 
think there's great power in using volunteers. And we've been 
fortunate to have nearly 25 years of a relationship with the 
Forest Service and our local forest to work out the kinks and 
to establish the relationships and the systems and the trust 
that works really well.
    I think that a key for us has really been understanding. We 
take anyone, regardless of experience, but we have crew leads 
and assistant crew leads that have been well trained and know 
how to manage volunteers. And so, there's a balance between the 
expertise and everyone who comes to build the trails, that can 
be developed. And we've been fortunate to work really 
cooperatively with the Forest Service to figure out how to make 
this happen in Washington State.
    The Chairman. Well, that is good. That is a good success 
story.
    I know people that have been involved with either 
establishing trails or maintaining trails over the years going 
way back to my parents', grandparents' days in the Tongass, who 
still look at that trail and say, I helped make that trail. And 
there is a real sense of pride. The family says, yes, that was 
my grandpa's trail. That really does allow for great community 
buy-in and support for what it is that we are doing.
    Senator Cortez Masto, do you have any follow-up questions?
    Senator Cortez Masto. No, thank you.
    The Chairman. I want to thank each of you for your input 
here this morning. I think the hearing today has been very 
interesting.
    Following on what we heard last Tuesday, I think, as a 
Committee, we have got a great deal to work with. When we think 
about an infrastructure proposal that can really help this 
country, help our economy, but also ensure that whether it is 
clean water, whether it is ensuring that our communities are 
safe from the threat of wildfire, whether it is how we enjoy 
our amazing open spaces, whether they are trails or parks or 
skiing, and making sure that these resources that we have on 
our land, under our land, are respected, is a great part of 
what we do here in this Committee.
    Everybody else is talking about infrastructure and what 
they can contribute to the package. I think within this 
Committee we have the most exciting part of that portfolio, so 
I look forward to working with you as we help advance this.
    Thank you very much for your time this morning.
    We stand adjourned.
    [Whereupon, at 11:57 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
